                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Quick Reaction Report:
                     EPA Must Take Steps to
                     Implement Requirements of
                     Its Scientific Integrity Policy
                     Report No. 13-P-0364              August 28, 2013




Scan this mobile
code to learn more
about the EPA OIG.
 Report Contributors:                               Eric Lewis
                                                    Dwayne Crawford
                                                    Alisha Chugh
                                                    Chris Baughman
                                                    Nyquana Manning




Abbreviations

EPA             U.S. Environmental Protection Agency
OIG             Office of the Inspector General
ORD             Office of Research and Development




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency                                                     13-P-0364
                                                                                                            August 28, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review
                                      Quick Reaction Report: EPA Must Take
During an Office of Inspector         Steps to Implement Requirements of Its
General review of a hotline
complaint, we evaluated the           Scientific Integrity Policy
U.S. Environmental Protection
Agency’s progress in                   What We Found
implementing certain
requirements of its agencywide        Although an agencywide training program is required by the agency’s Scientific
Scientific Integrity Policy. In       Integrity Policy, the EPA has not developed or implemented a program to
March 2009, the President             instruct the EPA’s employees on the requirements and standards of scientific
issued a memorandum to the            integrity. In addition, the EPA has not generated and made publicly available
heads of all executive                an annual report on the status of scientific integrity within the agency as
departments and agencies for          required by the policy. The policy makes the EPA’s Scientific Integrity
taking action to guarantee            Committee responsible for implementing these requirements. As a result of the
scientific integrity throughout the   committee’s lack of progress in implementing these requirements, the EPA is
executive branch. In the              less equipped to:
memorandum, the President
instructed each agency to               • Provide leadership for the agency on scientific integrity.
implement rules and procedures          • Promote agency compliance with the Scientific Integrity Policy.
for ensuring the integrity of the       • Keep the agency’s senior leadership informed on and involved with
scientific process within their           the agencywide status of scientific integrity.
agency. The EPA enacted its             • Detect violations of scientific integrity.
Scientific Integrity Policy in        Planned
                                           Agency Corrective Actions
February 2012. The policy              What We Recommend and Agency Corrective Actions
provides a framework intended
to ensure scientific integrity        We recommend that the EPA’s Deputy Administrator direct the Scientific
throughout the EPA, and               Integrity Committee to (1) develop and implement agencywide training on the
describes the role of an              Scientific Integrity Policy in a manner that will minimize further delay in the EPA’s
agencywide committee of               adherence to policy requirements, (2) complete and issue an annual report on
scientific integrity officials to     the status of scientific integrity in the agency before its first formal review of the
implement this policy.                policy, and (3) provide the Deputy Administrator with a written plan describing
                                      the action plan and milestones for implementing and completing the training and
This report addresses the             issuing the annual report.
following EPA Goal or
Cross-Cutting Strategy:               We met with the EPA’s current interim scientific integrity official in July 2013 to
                                      discuss the findings and recommendations in our draft quick reaction report. In
    Advancing science,                response to our draft quick reaction report the EPA’s interim scientific integrity
    research, and technological       official included corrective actions with planned completion dates, or a statement
    innovation.                       that actions were complete, in response to all three OIG recommendations. The
                                      corrective actions meet the intent of our recommendations. Recommendations 1
For further information, contact
                                      and 2 are resolved with corrective actions underway. Recommendation 3 is
our Office of Congressional and       completed and closed. No additional agency response to this report is required.
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130828-13-P-0364.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                            August 28, 2013

MEMORANDUM

SUBJECT:       Quick Reaction Report: EPA Must Take Steps to Implement Requirements of Its
               Scientific Integrity Policy
               Report No. 13-P-0364

FROM:          Arthur A. Elkins Jr.

TO:            Bob Perciasepe, Deputy Administrator

This is our report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion of the OIG
and does not necessarily represent the EPA position.

Action Required

You are not required to provide a written response to this report because the corrective actions with
estimated completion dates were provided in response to the draft quick reaction report. Please update
the EPA Management Audit Tracking System as you complete the planned corrective actions. We will
post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov, or Director for
Special Program Reviews Eric Lewis at (202) 566-2664 or lewis.eric@epa.gov.
Purpose

            During a separate Office of Inspector General review of a hotline complaint,
            we found conditions that caused us to assess the U.S. Environmental Protection
            Agency’s progress in implementing certain requirements of its Scientific Integrity
            Policy. Specifically, we evaluated whether the EPA has:

               •   Developed and implemented training on scientific integrity for all the
                   EPA’s employees.
               •   Generated and made publicly available an annual report on the status of
                   scientific integrity within the agency.

Background
            On March 9, 2009, the President issued a memorandum to the heads of all
            executive departments and agencies for taking action to guarantee scientific
            integrity throughout the executive branch. In the memorandum, the President
            instructed each agency to implement rules and procedures for ensuring the
            integrity of the scientific process within their agency. Further, the President
            assigned the director of the Office of Science and Technology Policy the
            responsibility for conferring with the heads of executive departments and agencies
            and recommending a plan to achieve these goals.

            In response to the President’s memorandum, the former EPA Administrator
            issued a memorandum in May 2009 to all the EPA’s employees notifying them
            of the President’s memorandum and that it provided important guideposts for
            how the EPA should conduct and use science. The former Administrator’s
            memorandum stated that the President’s memorandum provides the agency with
            a unique opportunity to further demonstrate a deep commitment to scientific
            integrity in the pursuit of the agency’s vital mission of protecting human health
            and the environment. The former Administrator emphasized the agency should
            look for opportunities to strengthen existing policies and procedures that ensure
            scientific integrity within the agency.

            The director of the Office of Science and Technology Policy issued a
            memorandum in December 2010 to provide guidance to agencies to implement
            the Administration’s policies on scientific integrity. The director instructed
            agencies to develop policies that, among other things, do the following:

               1. Ensure a culture of scientific integrity.
               2. Strengthen the actual and perceived credibility of government research.
               3. Facilitate the free flow of scientific and technological information,
                  consistent with privacy and classification standards.
               4. Establish principles for conveying scientific and technological information
                  to the public.

13-P-0364                                                                                        1
            In accordance with these memorandums, the EPA enacted its Scientific Integrity
            Policy in February 2012. The policy provides a framework intended to ensure
            scientific integrity throughout the EPA. The EPA’s Scientific Integrity Policy also
            established a Scientific Integrity Committee, which is chaired by the scientific
            integrity official and consists of deputy scientific integrity officials from the
            agency’s program and regional offices. Under the Scientific Integrity Policy, the
            Scientific Integrity Committee is charged with implementing, reviewing and
            revising, as needed, the policy governing specific areas of scientific integrity.
            Specifically, the Scientific Integrity Committee is responsible for:

               •   Overseeing the development and implementation of training related to
                   scientific integrity for all the EPA’s employees.

               •   Generating and making publicly available an annual report to the EPA
                   science advisor on the status of scientific integrity within the agency. This
                   report should highlight scientific integrity successes, identify areas for
                   improvement and develop a plan for addressing critical weaknesses, if
                   any, in the agency’s program and regional offices.

            According to the Scientific Integrity Policy, in advance of completing the annual
            report, the Scientific Integrity Committee is required to conduct an agencywide
            annual meeting on scientific integrity that will include the involvement of the
            EPA’s senior leadership, reports from offices and programs, and an opportunity
            for input from the EPA scientific community. The Scientific Integrity Committee
            is also expected to review the policy every 2 years for its effectiveness and
            adherence with applicable rules and regulations.

            Prior Audit Coverage

            On July 22, 2011, the OIG issued audit report “Office of Research and
            Development Should Increase Awareness of Scientific Integrity Policies,”
            Report No. 11-P-0386. This report addressed whether the EPA’s Office of
            Research and Development had controls to address scientific integrity and
            research misconduct, and whether those controls were effective. The EPA OIG
            found that ORD science staff was unaware of the EPA’s Principles of Scientific
            Integrity, which went into effect in March 2000. The EPA OIG also found that
            ORD had not updated the Principles of Scientific Integrity E-Training since
            June 2005. Consequently, the EPA OIG made recommendations for improvement,
            including that the assistant administrator for ORD:

               • Periodically test the effectiveness of controls to address scientific integrity
                   and research misconduct.

                   Continue working with the unions to update and implement the
                   Principles of Scientific Integrity E-Training. Changes to the course were
                   to include: (a) making the e-training mandatory for all ORD staff,
                   (b) ensuring that the updated course contains real-life examples, and


13-P-0364                                                                                          2
                           (c) creating a system for linking to current contact information for
                           reporting instances of scientific integrity and research misconduct.

                  In response to the OIG report, ORD agreed with the recommendations and stated
                  that the agency will make the Principles of Scientific Integrity E-Training
                  mandatory for scientific and technical staff and to update the course to contain real-
                  life examples and links to current contact information for reporting instances of
                  scientific and research misconduct by July 2012. However, ORD noted that the
                  agency was in the process of developing a new agencywide policy on scientific
                  integrity, had named an acting scientific integrity official, and would establish
                  deputy scientific integrity officials in each of the regions and offices.
                  The agency noted that these officials will serve as members of the EPA’s
                  Scientific Integrity Committee, responsible for overseeing scientific integrity, and
                  addressing allegations of scientific integrity violations. The committee would also
                  be charged with standardizing the agency’s scientific integrity training and
                  ensuring that the appropriate EPA staff complete the necessary training courses.

    Scope and Methodology

                  We conducted our work from March to May 2013 in accordance with generally
                  accepted government auditing standards issued by the Comptroller General of the
                  United States. Those standards require that we plan and perform a review to
                  obtain sufficient, appropriate evidence to provide a reasonable basis for our
                  findings and conclusions based on our objectives. We believe that the evidence
                  obtained provides a reasonable basis for our findings and conclusions based on
                  our review objectives.

                  We reviewed the Scientific Integrity Policy to determine the agency’s Scientific
                  Integrity Committee roles and responsibilities. We also reviewed the President’s
                  March 2009 memorandum, the EPA Administrator’s May 2009 memorandum,
                  and the director of the Office of Science and Technology Policy’s December
                  2010 memorandum. We interviewed the EPA’s interim scientific integrity
                  official and staff from the Office of the Science Advisor regarding the status of
                  developing and implementing training for the EPA’s employees on the Scientific
                  Integrity Policy. We also interviewed these individuals to determine the status of
                  fulfilling other requirements for the Scientific Integrity Committee under the
                  policy.

    Status of Implementing Training and Reporting Requirements of
    Scientific Integrity Policy
                  We met with the agency’s interim scientific integrity official on March 14, 2013,
                  to determine the status of developing and implementing training for the EPA’s
                  employees on the Scientific Integrity Policy.1 We found that the EPA has not

1
 In a May 8, 2013, memorandum from the Acting EPA Administrator, a new interim scientific integrity official was
named. The interim scientific integrity official we met with on March 14, 2013, is now the former official.

    13-P-0364                                                                                                      3
             developed or implemented agencywide training on the Scientific Integrity Policy.
             Although the policy has been in place since February 2012, the former interim
             scientific integrity official reported that the Scientific Integrity Committee had not
             completed development and implementation of an agencywide training program.
             He noted that part of the delay in developing the training was due to the fact that
             they invited union participation. He further stated that it has taken quite a while for
             the union to decide whether and how they wanted to participate in the training
             development.

             During our meeting with the former interim scientific integrity official, he could
             not provide any projected milestone dates or timeframes for when the committee
             will complete this training requirement. On May 1, 2013, according to the audit
             follow-up coordinator for ORD and the agency’s Management Audit Tracking
             System, the estimated completion date for the agencywide training on the
             February 2012 Scientific Integrity Policy has been revised to December 31, 2013.
             However, neither the audit follow-up coordinator nor the Management Audit
             Tracking System entry indicated whether the agency’s Scientific Integrity
             Committee was involved in establishing the completion date for the agencywide
             training.

             During our March 14, 2013, meeting, we also discovered that the EPA has not
             generated and made publicly available an annual report on the status of scientific
             integrity within the agency because the committee has not yet created it, as
             required by the Scientific Integrity Policy. The former interim scientific integrity
             official could not provide any timeframe for when the committee will complete
             the first annual report. The former interim scientific integrity official stated that
             the committee would have to develop and implement training on the Scientific
             Integrity Policy for the EPA’s employees before they can complete the annual
             reporting requirement.

Conclusion

            As a result of the Scientific Integrity Committee’s lack of progress in implementing
            the training and annual reporting requirements, the committee cannot fully determine
            the EPA employees’ compliance with the agency’s Scientific Integrity Policy. In
            addition, required determinations of the effectiveness of the policy and the status of
            scientific integrity in the EPA are lacking and will continue to be delayed until the
            policy requirements are implemented. By implementing these key requirements in its
            Scientific Integrity Policy, the EPA would be acting in accordance with the
            President’s 2009 memorandum for ensuring the integrity of the scientific process and
            further demonstrating the EPA’s commitment to scientific integrity in the pursuit of
            the agency’s vital mission of protecting human health and the environment.




13-P-0364                                                                                            4
Recommendations
             We recommend that the EPA’s Deputy Administrator direct the Scientific
             Integrity Committee to:

                 1. Develop and implement agencywide training on the Scientific Integrity
                    Policy in a manner that will minimize further delay in the EPA’s
                    adherence to policy requirements.

                 2. Complete and issue an annual report on the status of scientific integrity in
                    the EPA before its first formal review of the policy.

                 3. Provide the Deputy Administrator with a written plan describing the action
                    plan and milestones for implementing and completing the training and
                    issuing the annual report.

Agency Response to Draft Quick Reaction Report and OIG Evaluation

            The current interim scientific integrity official responded to our draft quick reaction
            report on June 14, 2013 (appendix A). The official commented that our draft quick
            reaction report lacked recognition of what has been done thus far to implement the
            Scientific Integrity Policy within the agency. During a follow-up meeting to discuss
            the official’s comments, we informed the official that our findings and
            recommendations are based on information we obtained from the former interim
            scientific integrity official during a meeting held in March 2013 and our review of
            the policy. We informed the current official that the former official reviewed our
            draft quick reaction report and did not dispute the facts we reported.

            We met with the EPA’s current interim scientific integrity official in July 2013 to
            discuss the findings and recommendations in our draft quick reaction report. The
            current interim scientific integrity official’s response to our draft quick reaction
            report provided updated information on the status of implementing training and
            reporting requirements under the Scientific Integrity Policy. Specifically, the
            response included corrective actions with planned completion dates or indication
            that the recommended action was completed. Specifically:

                   The Scientific Integrity Committee plans to finalize the scientific integrity
                   training module by December 31, 2013, and make it available through
                   Skillport (i.e., the agency’s e-learning training portal). According to the
                   current interim scientific integrity official, this date was coordinated and
                   approved by the committee.

                   The committee has reviewed an outline for the annual report on scientific
                   integrity and, after receiving input at the annual meeting on June 25, 2013,
                   plans to finalize the report by September 30, 2013.



13-P-0364                                                                                             5
                   The committee has outlined a plan for moving forward with completing the
                   training and issuing the annual report. The Deputy Administrator has been
                   briefed, provided input and agreed with the plan presented to him. The
                   deputy director for the EPA’s Office of the Science Advisor confirmed that
                   the briefing to the Deputy Administrator, which occurred on June 7, 2013,
                   covered progress on implementing the Scientific Integrity Policy and related
                   matters.

            In accordance with EPA Manual 2750, the OIG has determined that the corrective
            actions meet the intent of our recommendations. Recommendations 1 and 2 are
            considered resolved with corrective actions underway. Recommendation 3 is
            completed and considered closed. No additional response to this report is required.
            However, the involved agency office should update the EPA Management Audit
            Tracking System as planned corrective actions are completed, and notify the OIG if
            there is a significant change in the agreed-to corrective actions.

            Our detailed responses to agency comments on the draft quick reaction report are
            included in appendix B. Additional attachments provided with the agency’s signed
            and dated comments can be located at http://www.epa.gov/oig.




13-P-0364                                                                                         6
                                    Status of Recommendations and
                                      Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1       Action Official           Date      Amount      Amount

     1        5     Direct the Scientific Integrity Committee to develop     O       EPA Deputy Administrator   12/31/2013
                    and implement agencywide training on the
                    Scientific Integrity Policy in a manner that will
                    minimize further delay in the EPA’s adherence to
                    policy requirements.

     2        5     Direct the Scientific Integrity Committee to             O       EPA Deputy Administrator   09/30/2013
                    complete and issue an annual report on the status
                    of scientific integrity in the EPA before its first
                    formal review of the policy.

     3        5     Direct the Scientific Integrity Committee to provide     C       EPA Deputy Administrator   06/07/2013
                    the Deputy Administrator with a written plan
                    describing the action plan and milestones for
                    implementing and completing the training and
                    issuing the annual report.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




    13-P-0364                                                                                                                                       7
                                                                                    Appendix A

      Agency’s June 13, 2013 Comments on the OIG’s
               Draft Quick Reaction Report

MEMORANDUM

SUBJECT:       Response to Office of Inspector General’s Draft Report Entitled Quick Reaction
               Report: The EPA Must Take Steps to Implement Requirements of its Scientific
               Integrity Policy

FROM:          Glenn Paulson, Ph.D.
               Interim Scientific Integrity Official for EPA

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to provide comments and additional information on this Draft
Quick Reaction Report. In addition to general comments on the conclusions and
recommendations, technical comments are provided in Attachment 1.

I have personally met with the Office of Inspector General management several times to develop
coordination procedures on actions related to allegations of scientific misconduct and therefore I
am surprised by the tone and method that is being used for this draft report. During our last
meeting, I suggested that OIG attend the Agency’s Scientific Integrity annual meeting scheduled
for June 25. You have already received and accepted a formal invitation to this meeting. Further,
the hot line call mentioned in this report and the report’s recommendations do not appear to me
to have any connection with each other.

OVERALL COMMENTS

In February 2012, the EPA published a Scientific Integrity Policy that built on our long history
of scientific safeguards to further ensure that sound science drives agency decision-making. The
EPA’s ability to fulfill its mission to safeguard human health and protect the environment
depends on sound scientific analyses, and the Agency remains committed to scientific integrity.
When dealing with science, it is the responsibility of every EPA employee to conduct, utilize,
and communicate science with honesty, integrity, and transparency, both within and outside the
agency. When Bob Perciascepe (then Deputy Administrator) announced the Scientific Integrity
Policy in his “All EPA Employees” memorandum dated February 16, 2012, he stated that the
Policy became effective immediately. Each employee received this email, demonstrating the
Policy’s importance.

The draft report demonstrates both a lack of clear understanding of the Policy and also any
recognition of what has been done thus far to implement it at the Agency. For example, the draft
does not acknowledge that the Policy not only incorporates but goes well beyond the OSTP


13-P-0364                                                                                        8
guidance, and in addition clearly demonstrates the EPA’s commitment to Scientific Integrity
through a training element, as well as an annual meeting and report.

The draft report’s core concern is that the development of training and the generation of an
annual report have not been completed. The draft report does not acknowledge that, in fact,
work on both is well advanced, and substantial efforts have been devoted as necessary to bring
that work to its current status. The draft report fails to acknowledge the ongoing work that the
Scientific Integrity Committee is undertaking to ensure consistent implementation of the Policy.
The Interim Scientific Integrity Official has, in addition to leading the Committee, addressed
several allegations of scientific misconduct that have been reported by outside entities.

These cases have been resolved, and also discussed with the OIG. Finally, we have also been
working with the OIG to develop procedures to ensure coordination on allegations of scientific
misconduct or other violations of the Scientific Integrity Policy (See Attachment 2). The draft
Quick Reaction Report leaves the erroneous impression that there is little work being done on
scientific integrity issues. While completion of the training module and the annual report are
important, these are only two of the activities currently underway, and they do not impede
agency managers and employees from complying with the Policy or detecting and reporting
violations of the Policy.

As identified in this response, the draft report contains substantial misstatements. Since the work
outlined in the draft report’s Recommendations is already well advanced, finalization of the OIG
draft report would not contribute to effective completion of that work. By failing to
acknowledge these activities and arriving in the midst of their completion, the draft Quick
Reaction Report, if made final, would be superfluous. It would, however, further delay the work
of the Scientific Integrity Committee and staff in implementation of the Policy. To respond to
this draft, OSA’s scientific integrity staff has already been diverted away from developing the
training, planning the annual meeting, and gathering information for the annual report.

AGENCY RESPONSE TO RECOMMENDATIONS

The draft report recommends that the EPA’s Deputy Administrator direct the Scientific Integrity
Committee to (1) develop and implement agencywide training on the Scientific Integrity Policy
in a manner that will minimize delay in the EPA’s adherence to policy requirements, (2)
complete and issue an annual report on the status of scientific integrity in the agency before its
first formal review of the policy, and (3) provide the Deputy Administrator with a written plan
describing the actions and milestones for implementing and completing the training and issuing
the annual report.

The draft report claims that the Scientific Integrity Committee’s lack of progress in
implementing the requirements of the Policy is resulting in the EPA being less equipped to
provide leadership for the Agency on Scientific Integrity, promote compliance with the Policy,
keep the Agency’s senior leadership informed on and involved with the agencywide status of
scientific integrity, and detect violations of scientific integrity.




13-P-0364                                                                                          9
Contrary to this claim, the Committee, comprised of senior management officials from across the
agency, meets regularly to discuss elements of the Policy and enhance consistency across the
Agency. These elements include development of a training module on the Scientific Integrity
Policy, options for management certification of compliance with the policy, coordination
procedures for the Scientific Integrity Official and the OIG, and the format for the annual
meeting and annual report. By meeting regularly to discuss scientific integrity, the Committee
provides a critical cross-agency resource for conveying information and providing leadership on
the Policy. Further, the Deputy Administrator has provided guidance and is already directly
engaged with the Scientific Integrity Policy’s implementation.

The training module development, while important, cannot be used as a surrogate for
demonstrating Policy implementation. In compliance with an earlier recommendation from the
OIG to work with the unions in developing scientific integrity principles training (“Office of
Research and Development Should Increase Awareness of Scientific Integrity Policies,” Report
No. 11-P-0386), over a period of several months the Committee diligently urged the unions to
recruit volunteers to participate in training development.

In a letter from the unions dated last November 21, 2012, the unions acknowledge that the EPA
reached out to them for their participation (Attachment 3). When no representatives were
named, Mary Greene, Deputy Director of the Office of the Science Advisor, responded back to
them on January 9, 2013, again requesting participation (Attachment 4.) Union representative
names were finally provided on May 3, 2013, and the first full workgroup meeting has already
taken place. At the same time, the Committee has continued to develop the training module on
the Scientific Integrity Policy. As reported to the OIG on April 3, 2013, the Committee plans to
finalize the scientific integrity training module by December 31, 2013 and make it available
through Skillport. The Quick Reaction Report implies that no progress has been made on the
training development action; this is simply not true.

In a memorandum to the Scientific Integrity Committee dated May 8, 2013, the Acting
Administrator reiterated his commitment to scientific integrity and provided thoughts to the
Committee on the organization of the annual meeting on scientific integrity and the content of
the annual report. He requested that the Committee complete the annual report by the end of
Fiscal Year 2013. A copy of his memorandum is found at Attachment 5. The Scientific
Integrity Committee has reviewed an outline for the annual report on scientific integrity and,
after receiving input at the upcoming annual meeting on June 25, plans to finalize the report by
September 30, 2013.

The third recommendation, to provide the Deputy Administrator with a written plan for
completing the training and issuing the annual report, is not needed as we have already outlined
the path forward, and the Deputy Administrator has been briefed, provided input, and agreed
with the plan presented to him.

As required by the EPA Order 2750, the agency’s written response to a final report would
address any recommendations that may be included at that time. We would consider any
recommendations on their merits and, if applicable, provide a corrective action plan and/or offer
alternative solutions to the report’s recommendations.



13-P-0364                                                                                          10
I request that you withdraw the draft report at this time. In my view, an appropriate time to
review the EPA’s implementation of the Policy would be after the first annual report is issued
and the first cycle of training is at least well underway, if not completed.

CONTACT INFORMATION

If your staff has any questions, please contact Martha Otto, Scientific Integrity Staff, Office of
the Science Advisor, at (202) 564-2782 or otto.martha@epa.gov.

Attachments

cc:    Bob Perciasepe, Acting Administrator




13-P-0364                                                                                            11
                                                                                     Appendix B

OIG Responses to Agency’s Comments on Draft Quick Reaction Report

General Comments
“I have personally met with the Office of Inspector General management several times to
develop coordination procedures on actions related to allegations of scientific misconduct and
therefore I am surprised by the tone and method that is being used for this draft report.”

    OIG Response #1: We understand those coordination procedures. However, those
    matters pertain to how our offices will coordinate when scientific misconduct
    allegations or scientific integrity allegations are received. Those coordination
    procedures do not apply to how OIG coordinates with agency counterparts when we
    conduct audits and evaluations of agency activities and programs. The manual that
    covers how we coordinate in those activities is EPA Manual 2750, for which the audit
    liaison is the point of contact. We believe the tone of our draft quick reaction report
    was balanced and fair.


“During our last meeting, I suggested that OIG attend the Agency's Scientific Integrity annual
meeting scheduled for June 25. You have already received and accepted a formal invitation to
this meeting.”

    OIG Response #2: The agency’s plans to hold a Scientific Integrity annual meeting was
    announced in a May 8 memo issued by the Acting EPA Administrator, which occurred
    after OIG staff started its work to issue the draft quick reaction report. While we did
    participate in that meeting, that type of meeting cannot be a substitute for conveying
    OIG findings on matters of scientific integrity or draft report findings that have not been
    through the OIG’s quality assurance review process.


“Further, the hot line call mentioned in this report and the report's recommendations do not
appear to me to have any connection with each other.”

    OIG Response #3: The information on the hotline is provided solely for context. We
    received a hotline allegation that was not framed as a scientific integrity allegation.
    This other report is in draft and therefore we are limited in our ability to provide further
    details at this time.



Overall Comments
“The draft report demonstrates both a lack of clear understanding of the Policy and also any
recognition of what has been done thus far to implement it at the Agency.” The Quick Reaction


13-P-0364                                                                                          12
Report implies that no progress has been made on the training development action; this is simply
not true.”

    OIG Response #4: We have read the policy and understand it. Our findings are based on
    information we obtained from the (now former) interim scientific integrity official in early
    March 2013 and our review of the policy. The former interim scientific integrity official
    reviewed the draft quick reaction report and did not dispute the facts we reported.

    However, in response to our draft quick reaction report, the current interim scientific
    integrity official provided the OIG with new information on correctives actions and
    milestone dates regarding the agency’ progress on the development and implementation of
    the training and annual reporting schedule. This information is included under the section
    entitled “Agency Response to Draft Quick Reaction Report and OIG Evaluation.”
    .

“I request that you withdraw the draft report at this time. In my view, an appropriate time to
review the EPA's implementation of the Policy would be after the first annual report is issued
and the first cycle of training is at least well underway, if not completed.”

     OIG Response #5: The OIG does not plan to withdraw its report. Rather, as the standard
     OIG practice, when the agency provides new information in response to a draft OIG report,
     that information will be included in OIG’s final report so that we are reporting the best
     available information we have. In this case, the information on corrective actions and
     milestones dates that the current interim scientific integrity chairman has reported in
     response to our report is included under the section entitled “Agency Response to Draft
     Quick Reaction Report and OIG Evaluation.”


Technical Comments

“Page 3, in the first sentence of the first paragraph, the draft report states that, "In response, the
agency agreed to make the Principles of Scientific Integrity E Training mandatory for scientific
and technical staff and to update the course ... " In fact, the Office of Research and Development,
not the agency, provided those responses to the OIG recommendations.”


        OIG Response #6: The OIG checked the referenced audit report and confirmed this
        fact. The final report now states this action was taken by ORD.


“Page 4, in the first full paragraph, the draft report states that, "During our meeting with the
interim scientific integrity official, he could not provide any projected milestone dates or
timeframes for when the committee will complete this training requirement." This is factually
incorrect. The interim scientific integrity official said that the Committee should finish the
training this year.”




13-P-0364                                                                                          13
       OIG Response #7: The former interim scientific integrity official never stated to the
       OIG that the training would be completed in calendar year 2013. Rather, the former
       interim scientific integrity official stated that a timeline for completion of the training
       program was hard to determine (at the time of our March 2013 meeting) since the
       committee was still waiting to see how the union intended to participate. The former
       interim scientific integrity official reviewed OIG’s draft quick reaction report and did
       not dispute the facts in it, including information obtained in interviews with the former
       official.

“Page 4, in the first full paragraph, the draft report states that, "On May l, 2013, according to the
Audit Follow-up Coordinator for ORD and the agency's Management Audit Tracking System,
the estimated completion date for the agencywide training on the February 2012 Scientific
Integrity Policy has been revised to December 31, 2013. However, neither the audit follow-up
coordinator nor the Management Audit Tracking System entry indicated whether the agency's
Scientific Integrity Committee was involved in establishing the completion date for the
agencywide training."The date approved by the Scientific Integrity Committee was coordinated
with ORD's Audit Coordinator. This statement is factually incorrect and needs to be deleted.”


       OIG Response #8: We communicated with the audit follow-up coordinator and the
       coordinator did not state that the Scientific Integrity Committee established the
       December 2013 date for completion of the agencywide training. We also reviewed
       the Management Audit Tracking System records and found no evidence that the
       December 2013 date was coordinated through the Scientific Integrity Committee.
       However, based on the information provided by the current interim scientific
       integrity official in response to our draft quick reaction report, we note in this report
       that the date was coordinated and approved by the Scientific Integrity Committee.
       This reference is included under the first bullet of the section entitled “Agency
       Response to Draft Quick Reaction Report and OIG Evaluation.”



“Page 4, in the second full paragraph, last sentence, the draft report says that, "The interim
scientific integrity official stated that the committee would have to develop and implement
training on the Scientific lntegrity Policy for the EPA's employees before they can complete the
annual reporting requirement." This is factually incorrect.”

“When asked whether the Committee had completed the annual report, the interim scientific
integrity official replied that the Committee was discussing the format for the annual report. He
did not state that the annual report would have to wait for training development.”

         OIG Response #9: The former interim scientific integrity official
         reviewed OIG’s draft quick reaction report and did not dispute the facts in
         it, including information obtained in interviews with the former official.




13-P-0364                                                                                            14
Comments on Recommendations

We recommend that the EPA’s Deputy Administrator direct the Scientific
Integrity Committee to:

   1. Develop and implement agencywide training on the Scientific Integrity Policy in a
      manner that will minimize further delay in the EPA’s adherence to policy
      requirements.

Comment – “In a letter from the unions dated last November 21, 2012, the unions acknowledge
that the EPA reached out to them for their participation (Attachment 3). When no representatives
were named, the Deputy Director of the Office of the Science Advisor responded back to them
on January 9, 2013, again requesting participation (Attachment4.) 'Union representative names
were finally provided on May 3, 2013, and the first full workgroup meeting has already taken
place. At the same time, the Committee has continued to develop the training module on the
Scientific Integrity Policy. As reported to the OIG on April 3, 2013, the Committee plans to
finalize the scientific integrity training module by December 31, 2013 and make it available
through skill port.”

     OIG Response #10: Our findings are based on information we obtained from
     the (now former) interim scientific integrity official in early March 2013, during
     which we were not informed of the established date of December 31, 2013, for
     finalizing the scientific integrity training module. Nonetheless, the agency’s
     comments in response to our draft quick reaction report are responsive to
     recommendation 1. The agency’s reported actions include a plan and a date for
     corrective action. Therefore, the OIG considers this recommendation to be
     resolved.


   2. Complete and issue an annual report on the status of scientific integrity in the EPA
      before its first formal review of the policy.

Comment – “In a memorandum to the Scientific Integrity Committee dated May 8, 2013, the
Acting Administrator reiterated his commitment to scientific integrity and provided thoughts to
the Committee on the organization of the annual meeting on scientific integrity and the content
of the annual report. He requested that the Committee complete the annual report by the end of
Fiscal Year 2013. A copy of his memorandum is found at Attachment 5. The Scientific
Integrity Committee has reviewed an outline for the annual report on scientific integrity and,
after receiving input at the upcoming annual meeting on June 25, plans to finalize the report by
September 30, 2013.”

     OIG Response #11: The agency’s comments are responsive to
     recommendation 2. The agency’s reported actions include a plan and a date for
     corrective action. Therefore, the OIG considers this recommendation to be
     resolved.



13-P-0364                                                                                      15
   3. Provide the Deputy Administrator with a written plan describing the action plan and
      milestones for implementing and completing the training and issuing the annual report.

Comment – “The third recommendation, to provide the Deputy Administrator with a written
plan for completing the training and issuing the annual report, is not needed as we have already
outlined the path forward, and the Deputy Administrator has been briefed, provided input, and
agreed with the plan presented to him.”

       OIG Response #12: The agency’s comments are responsive to
       recommendation 3. The agency’s reported actions included a plan and a date for
       corrective action. Therefore, the OIG considers this corrective action to be
       completed and the recommendation to be closed.




13-P-0364                                                                                      16
                                                                               Appendix C

                                    Distribution
Office of the Administrator
Deputy Administrator
EPA Science Advisor
Agency Follow-Up Official (CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Research and Development
Deputy Assistant Administrator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Research and Development




13-P-0364                                                                              17
